         Office of Inspector General
         Audit Report




EPA Grants Awarded to the
Northern Cheyenne Tribe
Report No. 1000370-2002-1-00089   March 5, 2002
Inspector General Division
  Conducting the Audit:                  Central Audit Division
                                         Denver, Colorado Office


EPA Region Covered:                             Region 8


Program Offices Involved:                Tribal Assistance Program
                                         Grants, Audits, and Procurement Program
                                         Montana Operations Office


Grantee:                                 Northern Cheyenne Tribe


Audit Conducted by:                      Larry Dare
                                         Thomas Herrod




Cover: The illustration is part of an EPA poster that depicts Tribes’ sovereign right to
       protect the water, land, and air. The cover illustration represents air.
             UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                              OFFICE OF INSPECTOR GENERAL
                                CENTRAL AUDIT DIVISION                        BRANCH OFFICES:
                                  901 NORTH 5TH STREET             1445 Ross Avenue, Suite 1200
                               KANSAS CITY, KANSAS 66101               Dallas, Texas 75202-2733
                                       913-551-7878                                214-665-6621
                                     FAX: 913-551-7837                      FAX: 214-665-6589

                                      April 11, 2002                   999 18th Street Suite 300
                                                                   Denver, Colorado 80202-2405
                                                                                  303-312-6872
                                                                            FAX: 303-312-6063

MEMORANDUM

SUBJECT:     EPA Grants Awarded to the Northern Cheyenne Tribe
             Report No. 1000370-2002-1-00089

FROM:        Jeff Hart
             Branch Manager
             Denver Office

TO:          Jack McGraw
             Acting Regional Administrator
             Region 8

       Attached is our report, EPA Grants Awarded to the Northern Cheyenne Tribe.
This report includes our independent assessment of three Northern Cheyenne
environmental grants and Northern Cheyenne's general management of its
environmental program.

ACTION REQUIRED

       In accordance with EPA Order 2750, you, as the action official, are required to
provide our office with a proposed draft management decision specifying the Agency's
position on costs questioned in this report. The draft management decision is due
within 120 calendar days of the date of this transmittal memorandum.

       Our report includes an assessment of your draft report comments. We also
included your written comments as Appendix I.

       If you have any questions, please call me at (303) 312-6169 or Larry Dare at
(303) 312-6969. Please refer to report number 1000370-2002-1-00089 on any related
correspondence.


Attachment
                                    Table of Contents

Independent Auditor’s Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Audit Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

         Objective . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

         Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

         Findings        ...................................................... 4

         Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

         Agency Comments and Office of Inspector General Evaluation . . . . . . . . . . . . 5


Exhibits

         A         Summary of Balance Due EPA                      ............................... 6

         B         Summary of Audit Results for Water Grant I998634-99 . . . . . . . . . . . . . 7

         C         Summary of Audit Results for General Assistance Program
                    Grant GA998636-01 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

         D         Summary of Audit Results for Air Grant A008455-00 . . . . . . . . . . . . . . 10

Appendices

         I         Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

         II        Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12




                                                               i                       Report No. 1000370-2002-1-00089
                                                                       EPA Grants Awarded to
                                                                  the Northern Cheyenne Tribe



                       Independent Auditor’s Report

We have examined the costs claimed on the final Financial Status Report (Form 269A)
and Request for Advance or Reimbursement (Form 270) submitted by the Northern
Cheyenne Tribe, Lame Deer, Montana (grantee) for each of the grants listed in the
Scope and Methodology section. The preparation and certification of the claims are
the responsibility of the grantee. Our responsibility was to express an opinion on the
claims.

We conducted our examination in accordance with Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that
we plan and perform the audit to obtain reasonable assurance about whether the
claims submitted by the grantee are free of material misstatement and eligible under
grant agreements. An audit includes examining, on a test basis, evidence supporting
the amounts and disclosures in the final claims. An audit also includes assessing the
accounting principles used and significant estimates made by management in
preparing the claims. We believe that our audit provides a reasonable basis for our
opinion.

In our opinion, except for the questioned cost in Exhibit C, the claimed costs referred to
above and presented in Exhibits A through D present fairly the reasonable, allowable,
and allocable costs claimed according to the law, regulations, assistance agreements,
and other applicable federal guidance.



                                         Jeff Hart
                                         Branch Manager
                                         Denver Office
                                         Central Audit Division
                                         Office of Inspector General

                                         Fieldwork End: March 16, 2001




                                            1                 Report No. 1000370-2002-1-00089
                                            EPA Grants Awarded to
                                       the Northern Cheyenne Tribe




(this page intentionally left blank)




                 2                 Report No. 1000370-2002-1-00089
                                                                      EPA Grants Awarded to
                                                                 the Northern Cheyenne Tribe



                                  Audit Results

In response to a December 7, 1999 allegation letter, we reviewed (1) the legality of
EPA Region 8's Tribal Assistance Program grant awards, (2) the Tribal Assistance
Program’s internal management, and (3) grantee management of environmental
programs and expenditure of grant funds. We reported on the first two issues in our
September 29, 2000 report, Increased Focus on Grant Management and Internal
Relationships Would Improve Region 8's Tribal Assistance Program. To address the
third issue, we conducted financial audits of four grantees. We judgementally selected
the four tribes based on their significant involvement with EPA programs, past
performance, and the fact that each had several recently closed grants for which we
expected to find complete financial records. This report provides our findings at one of
those grantees – the Northern Cheyenne Tribe, Lame Deer, Montana.


Objective
Our overall objective was to determine whether the grantee effectively managed its
environmental grants. To accomplish this objective, we asked the question: Are costs
claimed for grants eligible, reasonable, and supported, and were the costs in
compliance with grant terms and conditions as well as applicable Federal statutes and
regulations?


Scope and Methodology
EPA paid the grantee $403,231 under the following assistance agreements:

                                                       For Expenses
             Program                Grant No.            Through              Amount

 Water Section 106 Special         I998634-99        7/14/2000                 $64,444
 Project

 General Assistance Program        GA998636-01       6/28/2000               $256,993

 Air Section 105                   A008455-00       11/27/2000                 $81,794

                                                    Total                    $403,231


We selected these three grants to obtain a cross section of the grantee’s
environmental program and because the grantee had received final payment from
EPA for each grant. Grant I998634-99 involved water quality projects from April

                                           3                 Report No. 1000370-2002-1-00089
                                                                      EPA Grants Awarded to
                                                                 the Northern Cheyenne Tribe

1999 through March 2000. Grant GA998636-01 involved activities from May 1997
through March 2000 and was intended to increase tribal management capability
and capacity to implement environmental programs. Grant A008455-00 was for
developing and enhancing a comprehensive air monitoring program; the project
period was from October 1999 through September 2000. EPA funded 100 percent
of grant GA998636-01. EPA paid 95 percent of the costs associated with the other
two grants and the grantee paid the remaining 5 percent. The total claimed cost for
the three projects was $411,662, which included total EPA payments of $403,231.

For each grant, the grantee certified on Standard Form 270, Request for Advance
or Reimbursement, that the costs were in accordance with the grant terms.
Subsequently, the grantee certified on Standard Form 269A, Financial Status
Report, that all outlays and unliquidated obligations were for the purposes set forth
in the award documents.

We visited the Northern Cheyenne Reservation during the week of March 12, 2001.
We reviewed the three grants, the accompanying detailed expense ledgers, and
receipts and other supporting documentation.


Findings
We Questioned Contractual Funds

We questioned a $25,789 contract payment made because the Northern Cheyenne
Tribe did not follow competitive contracting requirements when it awarded this
contract. Region 8 had directed the grantee to award this contract to a specific
organization without competition. Regardless, the grantee was not following Tribal
and Federal procurement policies when awarding this contract.

Internal Controls Support Good Grant Management

Our objectives did not include a comprehensive review of the grantee's internal
controls for managing its Federal grants. However, during our on-site fieldwork we
generally found Northern Cheyenne’s internal controls to be sufficient.




                                            4                Report No. 1000370-2002-1-00089
                                                                      EPA Grants Awarded to
                                                                 the Northern Cheyenne Tribe


Recommendation

We recommend that the Acting Regional Administrator, EPA Region 8, recover
$25,789 in ineligible costs.


Agency Comments and
Office of Inspector General Evaluation
The Region did not agree with our recommendation and did not believe it is
appropriate that Northern Cheyenne be held responsible for repaying the amount
of costs questioned. The Region noted that Northern Cheyenne acted on the
Region's advice and believed the Region had already executed a contract with Mni
Sose Intertribal Water Rights Coalition, Incorporated in full compliance with
Federal procurement regulations. In addition the Northern Cheyenne Tribe
believed it was actually precluded in using its procurement procedures.

We disagree. While we acknowledge that the grantee was directed by Region 8 to
award the contract to the particular organization without competition, this did not
relieve the grantee of responsibility for following applicable regulations. While the
Tribal representatives knew at the time that the contract should have been
competed and raised their concerns with Region 8 staff, they nonetheless issued a
sole source contract without justification. As a result, we believe Northern
Cheyenne should be held responsible for its actions and required to repay
$25,789, the amount of the contract.




                                            5                Report No. 1000370-2002-1-00089
                                                                               EPA Grants Awarded to
                                                                          the Northern Cheyenne Tribe



                                         Exhibit A

                       Summary of Balance Due EPA

 Water Grant I998634-99                   EPA Payments as of 7/14/00                  $64,444
 (See Exhibit B)
 •   $68,570 Claimed                      EPA Share (95% of allowable)1               $64,444
 •   $0 Questioned
 •   $68,570 Total Allowable              Balance Due EPA                                  $0


 General Assistance Program Grant         EPA Payments as of 6/28/00                $256,993
 GA998636-01 (See Exhibit C)
 •  $256,993 Claimed                      EPA Share (100% of allowable)             $231,204
 •  $25,789 Questioned
 •  $231,204 Total Allowable              Balance Due EPA                             $25,789


 Air Grant A00845-00                      EPA Payments as of 11/27/00                 $81,794
 (See Exhibit D)
 •    $86,099 Claimed                     EPA Share (95% of allowable)                $81,794
 •    $0 Questioned
 •    $86,099 Total Allowable             Balance Due EPA                                  $0




                          Total Costs Claimed:                 $411,662
                          Total Costs Questioned:               $25,789
                          Total Allowable:                     $385,873

                          Total EPA Payments Made:             $403,231
                          Total EPA Share Allowable:2          $377,442

                          Balance Due EPA:                      $25,789


Notes

1.     Ninety-five percent of total program outlays is $65,142. However, the EPA share
       is limited to $64,444 because recipient match ($4,126) consists entirely of in-
       kind contributions which are not eligible for reimbursement. Total program
       outlays, $68,570, less the grantee’s in-kind contribution of $4,126, equals
       $64,444.

2.     EPA share represents that portion of allowable project cost for which EPA is
       responsible.


                                                    6              Report No. 1000370-2002-1-00089
                                                                             EPA Grants Awarded to
                                                                        the Northern Cheyenne Tribe



                                            Exhibit B

        Summary of Audit Results for Water Grant I998634-99


                                                         Costs Questioned as:

                        Costs
    Categories         Claimed      Ineligible       Unreasonable   Unsupported         Total

Payroll                $40,488
Travel                   5,323
Supplies                   133
Equipment                3,395
Utilities                1,185
Indirect Cost           13,920
Recipient Match          4,126

Total                  $68,570                                                                  $0

Total Allowable (Claimed less Questioned)                                                $68,570


Summary of Balance Due EPA

EPA Payments as of 03/31/00           $64,444

EPA Share (95% of allowable)1         $64,444

Balance Due EPA                             $0



Notes


1                Ninety-five percent of total program outlays is $65,142. However, the
                 EPA share is limited to $64,444 because recipient match ($4,126)
                 consists entirely of in-kind contributions which are not eligible for
                 reimbursement. Total program outlays, $68,570, less the grantee’s in-
                 kind contribution of $4,126, equals $64,444.




                                                 7                  Report No. 1000370-2002-1-00089
                                                                               EPA Grants Awarded to
                                                                          the Northern Cheyenne Tribe



                                             Exhibit C

                         Summary of Audit Results for
                General Assistance Program Grant GA998636-01


                                                          Costs Questioned as:

                            Costs
     Categories            Claimed    Ineligible       Unreasonable   Unsupported         Total

 Payroll                   $141,216
 Travel                     $25,957
 Supplies                    $5,443
 Equipment                  $12,071
                    1
 Contractual
 (Professional Services)    $25,789     $25,789                                          $25,7891
 Utilities                   $2,593
 Indirect Cost              $43,924

 Total                     $256,993     $25,789                                           $25,789

 Total Allowable (Claimed less Questioned)                                               $231,204


 Summary of Balance Due EPA

 EPA Payments as of 06/28/2000         $256,993

 EPA Share (100% of allowable)         $231,204

 Balance Due EPA                        $25,789



Notes

1.          We questioned this $25,789 contract payment made to Mni Sose Intertribal
            Water Rights Coalition, Incorporated, because the contract award did not follow
            Tribal or Federal procurement policies. Northern Cheyenne’s policy states that,
            “In purchases exceeding $10,000, the grantee shall utilize formal advertising
            (also known as sealed bids), with adequate purchase description, competitive
            sealed bids, and public openings unless negotiated procurement is utilized.”
            Although the grantee's policy allowed negotiated procurement in certain


                                                   8                  Report No. 1000370-2002-1-00089
                                                               EPA Grants Awarded to
                                                          the Northern Cheyenne Tribe

circumstances, that policy did not appear to apply in this case, and the required
procedures for negotiated procurements were not followed. In addition, the
Federal Acquisition Regulations, Part 6, requires a contract of this size to be
open for competitive bids. However, this contract was awarded sole source,
without competitive contracting requirements being followed. We found that the
grantee awarded the contract because Region 8 directed the grantee to
specifically contract with Mni Sose Intertribal Water Rights Coalition,
Incorporated, for conference services.




                                     9                Report No. 1000370-2002-1-00089
                                                                               EPA Grants Awarded to
                                                                          the Northern Cheyenne Tribe



                                            Exhibit D

          Summary of Audit Results for Air Grant A008455-00

                                                          Costs Questioned as:

                      Costs                                            Unsupporte
   Categories        Claimed         Ineligible        Unreasonable        d              Total

Payroll                $53,196
Travel                    9,052
Telephone                 1,954
Supplies-Office           1,714

Utilities                  675
Property/
Equipment                2,549

Equipment
Repair                     142

Indirect Cost           16,735

Public Relations              81

Total                  $86,098                                                                    $0

Total Allowable (Claimed less Questioned)                                                 $86,098


Summary of Balance Due EPA

EPA Payments as of 11/27/00           $81,794

EPA Share (95% of allowable)          $81,794

Balance Due EPA                             $0




                                                  10                  Report No. 1000370-2002-1-00089
                           EPA Grants Awarded to
                      the Northern Cheyenne Tribe


                                 APPENDIX I

AGENCY RESPONSE




      11          Report No. 1000370-2002-1-00089
                                                                  EPA Grants Awarded to
                                                             the Northern Cheyenne Tribe

                                                                       APPENDIX II
                                 DISTRIBUTION

Office of Inspector General
       Inspector General

EPA Headquarters Office
     Director, Financial Management Division (2733R)
     Comptroller (2731A)
     Director, Grants Administration Division (3903R)
     Agency Audit Followup Coordinator (2724A)
     Associate Administrator for Congressional and Intergovernmental Relations
       (1301A)
     Associate Administrator for Communications, Education, and Media Relations
       (1101A)

Region 8 Office
      Regional Counsel
      Assistant Regional Administrator, Office of Partnerships and Regulatory
         Assistance
      Associate Assistant Regional Administrator, Office of Partnerships and
         Regulatory Assistance
      Director, Tribal Assistance Program
      Assistant Regional Administrator, Office of Technical and Management Services
      Director, Grants, Audits, and Procurement Program
      Director, Financial Management Program
      Audit Followup Coordinator
      Director, Office of Communication and Public Involvement
      Director, Montana Office
      Northern Cheyenne Tribal Project Officer, Montana Operations Office

Northern Cheyenne Tribe
      President




                                         12              Report No. 1000370-2002-1-00089
